      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                       Washington, D.C. 20201




November 1, 2010

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Appropriations Funding for National Heart, Lung, and Blood Institute Contract
               HHSN268-2008-00012C With Information Management Services, Inc.
               (A-03-10-03121)


The attached final report provides the results of our review of appropriations funding for
National Heart, Lung, and Blood Institute contract HHSN268-2008-00012C with Information
Management Services, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-03-10-03121 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  APPROPRIATIONS FUNDING FOR
    NATIONAL HEART, LUNG,
     AND BLOOD INSTITUTE
CONTRACT HHSN268-2008-00012C
WITH INFORMATION MANAGEMENT
        SERVICES, INC.



                       Daniel R. Levinson
                        Inspector General

                        November 2010
                        A-03-10-03121
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Heart, Lung, and Blood Institute (NHLBI) is 1 of 27 institutes and centers of the
National Institutes of Health (NIH), an agency of the U.S. Department of Health & Human
Services (HHS). The NIH Office of the Director sets policy and plans, manages, and coordinates
NIH-wide programs and activities. Like all Federal agencies, NHLBI is required to comply with
appropriations statutes when acquiring supplies and services with appropriated funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). Federal statutes also limit the time during which an appropriation is available. A
fiscal year appropriation may be obligated only to meet a legitimate, or bona fide, need arising
in, or in some cases arising prior to but continuing to exist in, the appropriation’s period of
availability (31 U.S.C. § 1502). Congress determines the amount of funding available to an
agency for the purchase of goods and services by enacting appropriations. The Antideficiency
Act prohibits an agency from obligating or expending those funds in advance of or in excess of
an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

On September 1, 2008, NHLBI awarded contract HHSN268-2008-00012C (the Contract),
totaling $3.4 million, to Information Management Services, Inc., located in Rockville, Maryland.
The Contract requires Information Management Services to develop an information-coordinating
center to facilitate the scientific community’s access to NHLBI’s repository and limited-access
dataset programs. We determined that the Contract is a nonseverable service contract because it
represents a single undertaking and provides for a single outcome (to develop an information-
coordinating center) at the conclusion of the 5-year Contract.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NHLBI funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.




                                                 i
SUMMARY OF FINDINGS

NHLBI funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NHLBI did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NHLBI funded only
$0.7 million of the $3.4 million Contract obligation with fiscal year 2008 appropriations.
NHLBI obligated $0.7 million of fiscal year 2009 appropriated funds in violation of the bona
fide needs rule and planned to obligate funds appropriated for future years as well. Because the
Contract was for nonseverable services, NHLBI was required to record the full amount of the
Contract using fiscal year 2008 appropriated funds. By not recording the full obligation using
fiscal year 2008 appropriations, NHLBI potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NHLBI will need to deobligate the fiscal year
2009 appropriations and any future-year appropriations obligated after our review. To remedy
the potential Antideficiency Act violation, NHLBI will need to record an obligation of
$2.7 million ($3.4 million less $0.7 million) using fiscal year 2008 appropriations. If NHLBI
does not have $2.7 million of fiscal year 2008 appropriations available, it will violate the
Antideficiency Act.

RECOMMENDATIONS

We recommend that NHLBI:

   •   record the remaining $2.7 million of the $3.4 million Contract obligation against fiscal
       year 2008 funds and deobligate funds appropriated for years other than fiscal year 2008
       and

   •   report an Antideficiency Act violation if fiscal year 2008 funds are not available.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our findings and recommendations.
NIH stated that NLHBI deobligated $737,718 of fiscal year 2009 funds and obligated $2,723,161
($737,718 plus $1,985,443) of fiscal year 2008 funds. NIH’s comments are included in their
entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Federal Appropriations Statutes ............................................................................ 1
              National Heart, Lung, and Blood Institute Contract Award ................................. 2
              Departmental Review of National Institutes of Health Contracts ........................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FUNDING VIOLATIONS ............................................................................................... 3
               Bona Fide Needs Rule Violation .......................................................................... 3
               Potential Antideficiency Act Violation................................................................. 4

          CAUSES OF FUNDING VIOLATIONS ......................................................................... 4

          RECOMMENDATIONS .................................................................................................. 5

          NATIONAL INSTITUTES OF HEALTH COMMENTS ...............................................5

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

The National Heart, Lung, and Blood Institute (NHLBI) is 1 of 27 institutes and centers of the
National Institutes of Health (NIH), an agency of the U.S. Department of Health & Human
Services (HHS). The NIH Office of the Director sets policy and plans, manages, and coordinates
NIH-wide programs and activities. Like all Federal agencies, NHLBI is required to comply with
appropriations statutes when acquiring supplies and services with appropriated funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation was made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with separate subsequent fiscal year appropriations. A contract for a single outcome or effort is
chargeable to the fiscal year in which it was awarded, even though its performance may extend
into subsequent fiscal years. The Comptroller General has explicitly held that incremental
funding (i.e., other than full funding) of nonseverable service contracts violates the bona fide
needs rule (71 Comp. Gen. 428 (1992)).

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, pt. 4, § 145, prescribes the methodology for this reporting.

National Heart, Lung, and Blood Institute Contract Award

On September 1, 2008, NHLBI awarded contract HHSN268-2008-00012C (the Contract),
totaling $3.4 million, to Information Management Services, Inc., located in Rockville, Maryland.
The Contract requires Information Management Services to develop an information-coordinating
center to facilitate the scientific community’s access to NHLBI’s repository and limited-access
dataset programs. We determined that the Contract is a nonseverable service contract because it
represents a single undertaking and provides for a single outcome (to develop an information-
coordinating center) at the conclusion of the 5-year Contract.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law. 3 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NHLBI funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2008 and
2009. We did not review NHLBI’s internal controls because our objective did not require such a
review.

We performed our fieldwork at NHLBI in Bethesda, Maryland, during September 2009.




3
    Funding Multiple Year Contracts; Tiger Team Summary Report, July 29, 2009.


                                                        2
Methodology

To accomplish our objective, we:

   •   reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •   reviewed the Tiger Team report;

   •   reviewed Contract file documentation, including the statement of work, to determine the
       nature of the products or services to be provided; and

   •   analyzed funding documents and payment invoices to determine what appropriations
       were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

NHLBI funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NHLBI did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NHLBI funded only
$0.7 million of the $3.4 million Contract obligation with fiscal year 2008 appropriations.
NHLBI obligated $0.7 million of fiscal year 2009 appropriated funds in violation of the bona
fide needs rule and planned to obligate funds appropriated for future years as well. Because the
Contract was for nonseverable services, NHLBI was required to record the full amount of the
Contract using fiscal year 2008 appropriated funds. By not recording the full obligation using
fiscal year 2008 appropriations, NHLBI potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NHLBI will need to deobligate the fiscal year
2009 appropriations and any future-year appropriations obligated after our review. To remedy
the potential Antideficiency Act violation, NHLBI will need to record an obligation of
$2.7 million ($3.4 million less $0.7 million) using fiscal year 2008 appropriations. If NHLBI
does not have $2.7 million of fiscal year 2008 appropriations available, it will violate the
Antideficiency Act.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violation

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability


                                                  3
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved. A contract for nonseverable services
must reflect a bona fide need identified in the fiscal year in which the agency awards the
contract, although the contract’s performance may extend into subsequent fiscal years. Agencies
must fully fund nonseverable service contracts by obligating funds representing the entire
amount of the contract from appropriations available during the fiscal year in which the agency
awards the contract.

In fiscal year 2008, NHLBI awarded the 5-year nonseverable service Contract and incurred an
obligation totaling $3.4 million based on an existing bona fide need. However, NHLBI recorded
only $0.7 million of the obligation with fiscal year 2008 appropriations. Subsequently, NHLBI
improperly recorded an obligation of $0.7 million using fiscal year 2009 funds. However,
NHLBI did not have a bona fide need in fiscal year 2009. To remedy the violation, NHLBI will
need to deobligate the $0.7 million fiscal year 2009 appropriation and any future-year
appropriations obligated after our review.

Potential Antideficiency Act Violation

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, Preparation, Submission and Execution of the
Budget, part 4, § 145, prescribes the methodology for this reporting.

NHLBI should have recorded the full fiscal year 2008 obligation for $3.4 million at the time of
the Contract award. Instead, NHLBI recorded only $0.7 million of the obligation with fiscal year
2008 appropriations. To remedy the potential Antideficiency Act violation, NHLBI will need to
record an obligation of $2.7 million ($3.4 million less $0.7 million) using fiscal year 2008
appropriations. If NHLBI does not have $2.7 million of fiscal year 2008 appropriations
available, it will violate the Antideficiency Act.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

   •   widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

   •   the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

   •   the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.


                                                4
The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued the HHSAR on December 20, 2006, approximately 20 months before NHLBI awarded
the Contract.

RECOMMENDATIONS

We recommend that NHLBI:

   •   record the remaining $2.7 million of the $3.4 million Contract obligation against fiscal
       year 2008 funds and deobligate funds appropriated for years other than fiscal year 2008
       and

   •   report an Antideficiency Act violation if fiscal year 2008 funds are not available.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our findings and recommendations.
NIH stated that NLHBI deobligated $737,718 of fiscal year 2009 funds and obligated $2,723,161
($737,718 plus $1,985,443) of fiscal year 2008 funds. NIH’s comments are included in their
entirety as the Appendix.




                                                5
APPENDIX
                                                                                                                          Page 1 of2

                                     APPENDIX: NATIONAL INSTITUTES OF HEALTH COMMENTS 

 ~   ..l''''·'''''(''tl.(,

t'" ~                            	
'..,~f-	                                                     ----------

                               DEPARTMENT 'OF HEALTH &. HUMAN SERVICES                                 Public Health Service


                                                                                                      Nationa I Institutes of Health
                                                                                                      Bethesda, Maryland 20892



                              JUL 2 6 2010




                             TO: 	          George M. Reeb 

                                            Acting Deputy Inspector General for Audit Services 


                             FROM: 	        Director, NJH

                             SUBJECT: 	    Response to old praft Report, Appropriations Fundingfor National
                                           Heart, Lung, and Blood Institute Contract HHSN268-2008-00012C With
                                           Information Management Services, Inc. (A-03-10-03121)


                             Attached. are the National Institu~es of Health's comments on the Office ofInspector
                             General's draft report entitled, Appropriations Fundingfor National Heart, Lung, and
                             Blood Institute Contract HHSN268-2008-00012C With Information Management
                             Services, Inc, (A-03-10-03121),

                             We appreciate the opportunity to review and comment on this important topic. We have
                             provided general comments that address each of the findings and recommendations,' in the
                             draft report. Should you have questions or concerns regarding our comments, please
                             contact Meredith'Stein in the Office of Management Assessment at 301-402-8482.



                                                                       ~'4 , ~
                                                                         Francis S. Collins, M.D., Ph.D.

                             Attachment
                                                                                      Page 2 of 2




 NIH GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMA~
 SERVICES (HHS) OFFICE OF.INSPECTOR GENERAL (OIG) DRAFT REPORT
 ENTITLED, APPROPRJATIONS FUNDING FOR NATIONAL HEART. LUNG, AND
 BLOOD INSTITUTE CONTRACT HHSN268-2008-00012C WITH INFORMATION
 MANAGEMENT SERVICES. INC. (A-03-10-03121)

 The National Institutes of Health (NIH) appreciates the review conducted by OIG and the
 opportunity to provide clarifications on this draft report. We respectfully submit the following
 general comments; we are not submitting any technical comments to the draftTeport.

 OIG Findings:

    • 	 NHLBI did not comply with the time requirements and may not have complied with the
        amount requirements specified in the statutes. NHLBI funded only $0.7 million of the
        $3.4 million contract obligation with fiscal year 2008 appropriations . NHLBI obligated
        $0.7 million of fiscal year 2009 appropriated funds in violation of the bona fide needs
        rule and planned to obligate funds appropriated for future years as well .

    • 	 Because the contract was for nonseverable services, NHLBI was required to record the
        full amount of the contract using fiscal year 2008 appropriated funds.

 OIG Recommendations:

    • 	 NHLBI should record the remaining $2.7 million of the $3.4 million contract obligation
        against fiscal year 2008 funds and deobligate funds appropriated for years other than
        fiscal year 2008.

    • 	 NHLBI must report an Antideficiency Act violation if fiscal year 2008 funds are not
        available.

NIH Response:

The NIH concurS with OIG's findings and corresponding recommendations regarding-the
characterization ofNHLBI Contract HHSN268-2008-00012C as a non'severable services
contract and that under Federal appropriations law the contract should have been funded from the
fiscal year current at the time the contract was awarded.

On April 28, 2010, NHLBI issued Modification 3 to effect the following corrective 'actions:

    1) 	 deobJigate $737,718 of FY 2009 funds previously allotted   9Y Modification 2 and charge
         that allotment to FY 2008 funds, and

   2) 	 fund the remainder of the contract in the amoWlt of$I,985,443 from FY 2008 funds.

As a result of these actions, NHLBI Contract HHSN268-2008-00012C is now fully funded from
FY 2008 funds and is in compliance with all applicable fiscal laws.
